—No.—

IN THE
SUPREME COURT OF THE UNITED STATES

JONNIE RAVON - PETITIONER,
vs.
MARK INCH,
i

ASHLEY MOODY, - RESPONDENT(S).
PROOF OF SERVICE
I, Jonnie Ravon; DC# M28600, do swear or declare that on this date,

2^

., 202.0, as required by Supreme Court rule 29 I have served

the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and
PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding or
that party’s counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States
mail properly addressed to each of them and with first-class postage prepaid.

The names and addresses of those served are as follows:
Office Of

the Attorney General, Office of the Attorney General, Sun Trust

International Center, One S.E. Third Avenue, Suite 900, Miami, Florida 33131.
I declare under the penalty of perjury that the foregoing is true and
correct.
1

I

No.

IN THE
SUPREME COURT OF THE UNITED STATES

JONNIE RAVON - PETITIONER,
vs.

r
MARK INCH,

ASHLEY MOODY, - RESPONDENT(S).
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1 (h), I certify that the petition for a
' writ of certiorari contains 5,977 words excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1 (d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on

, 202_6

^Xlonnie Ravon; DC# M28600

6

I

